Case: 19-50121

Document: 00515366971

Page: 1

Date Filed: 03/31/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

APPgKfPfX-^. ;

No. 19-50121

A True Copy
Certified order issued Mar 31, 2020

cjwA W. O&uoC*Clerk, U.S. Court of /Appeals, Fifth Circuit

DAN GRANDBERRY,
• Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,

g

Respondent-Appellee

Appeal from the United States District Court
for the Western District of Texas

ORDER:
Dan Grandberry, Texas prisoner # 1685729, was convicted by a jury of
two counts of aggravated sexual assault of a child, for which he received
sentences of 60 years in prison, and two counts of indecency with a child, which
resulted in two-year sentences. He now seeks a certificate of appealability
(COA) to appeal the district court’s denial of his Federal Rule of Civil Procedure
60(b)(4) motion, which challenged the rejection of his 28 U.S.C. § 2254
application as untimely and, alternatively, on the merits.

Grandberry

contends that the district court lacked subject matter jurisdiction to consider
the timeliness of his federal application because when he raised the limitations
issue in his postconviction proceedings, the state courts failed to address the

A - iaSL
.

■

*5.

Case: 19-50121

Document: 00515366971

Page: 2

Date Filed: 03/31/2020

No. 19-50121
issue, meaning that the State has forfeited or waived the question of
timeliness.
To obtain a COA, Grandberry must make “a substantial showing of the
denial of a constitutional right.”

28 U.S.C. § 2253(c)(2); see Miller-El u.

Cockrell, 537 U.S. 322, 336 (2003). He therefore must demonstrate that jurists
of reason “could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El, 537 U.S. at 327. Because he is
challenging the denial of a Rule 60(b) motion, Grandberry must show that
reasonable jurists could debate whether the district court’s ruling was an abuse
of discretion. See Hernandez v. Thaler, 630 F.3d 420, 428 (5th Cir. 2011). He
has not made the requisite showing. Accordingly, Grandberry’s motion for a
COA is DENIED.

O

JAMES C. HO
UNITED STATES CIRCUIT JUDGE

2

A-LJZ.

Filed 01/09/2019 Page 1 of 3

Case 5:14-cv-00852 Document 28

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
DAN GRANDBERRY,
TDCJNo. 01685729,
Petitioner,
v.

LORIE DAVIS,1 Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

CIVIL NO. SA-14-CA-852-DAE

ORDER
Before the Court is pro se Petitioner’s Motion to Vacate Judgment (ECF No. 27)
pursuant to Fed. R. Civ. P. 60. On March 30,2015, this Court dismissed Petitioner’s 28 U.S.C.
§ 2254 petition for habeas corpus relief (ECF No. 1) as untimely and alternatively without merit
(ECF No. 14). Petitioner now seeks reconsideration of only the Court’s decision to dismiss his
petition as barred by the one-year statute of limitations embodied in § 2244(d). Specifically,
Petitioner argues the Court’s judgment is void under Rule 60(b)(4) because the Court lacked
subject-matter jurisdiction over the timeliness issue because the issue was waived by the state
court during Petitioner’s state habeas corpus proceedings.

After careful consideration,

Petitioner’s motion is denied.
A district court has jurisdiction to consider a Rule 60(b) motion in habeas proceedings so
long as the motion “attacks, not the substance of the federal court’s resolution of the claim on the
1
The previous named Respondent in this action was William Stephens. On May 1, 2016, Lorie Davis
became the Director of the Texas Department of Criminal Justice, Correctional Institutions Division. Under Rule
25(d) of the Federal Rules of Civil Procedure, Davis is automatically substituted as a party.

6 -±0±3

Filed 01/09/2019 Page 2 of 3

Case 5:14-cv-00852 Document 28

merits, but some defect in the integrity of the federal habeas proceedings.” Gonzalez v. Crosby,
545 U.S. 524, 532 (2005). A motion that seeks to add a new ground for relief or attack the
previous resolution of a claim on the merits is, in fact, a successive petition subject to the
standards of 28 U.S.C. § 2244(b). Id. at 531-32. However, a motion which merely challenges
the district court’s ruling which precluded a ruling on the merits—for instance, a denial based on
the statute-of-limitations bar—falls within the jurisdiction of the district court to consider. Id. at
532 n.4; Adams v. Thaler, 679 F.3d 312, 319 (5th Cir. 2012). As such, this Court has
jurisdiction to consider Petitioner's motion, as it challenges only the Court's application of the
statute of limitations set forth in § 2244(d).
Under Rule 60(b)(4), a judgment may be set aside if the district court lacked subject
matter or personal jurisdiction, or if it acted inconsistent with due process. Jackson v. Thaler,
.

;-”v

%■ 348 F. App’x 29, 32. (5th Cir. 2009) (quoting Callon Petroleum Co. v. Frontier Ins. Co., 351
F.3d 204, 208 (5th Cir. 2003)). Petitioner fails to make this showing, and has provided no
relevant authority supporting his contention that the Court lacked subject-matter jurisdiction over
the limitations issue.

Moreover, even assuming the Court’s exercise of subject-matter

jurisdiction was erroneous in this case, it would be considered res judicata and not subject to
collateral attack through Rule 60(b)(4) because Petitioner was previously given the opportunity
to challenge jurisdiction and failed to do so. See Brown v. Illinois Cent. R. Co., 480 F. App’x
753, 754-55 (5th Cir. 2010) (citing Ins. Corp. of Ireland, Ltd. v. Compagnie des Bauxites de
Guinee, 456 U.S. 694, 702 n. 9 (1982)); Picco v. Global Marine Drilling Co., 900 F.2d 846, 850
(5th Cir. 1990) (where party had notice of order in question and opportunity to challenge
. jurisdiction on appeal, but did not do so, party was “barred from challenging ... jurisdiction in a
Rule 60(b)(4) proceeding”).

2

£o$3

Filed 01/09/2019 Page 3 of 3

Case 5:14-cv-00852 Document 28

It is therefore ORDERED that Petitioner’s Motion to Vacate Judgment (ECF No. 27) is
DENIED.
It is further ORDERED that a certificate of appealability is DENIED, as reasonable
jurists could not debate the denial or dismissal of the Petitioner’s motion on substantive or
procedural grounds, nor find that the issues presented are adequate to deserve encouragement to
proceed. Miller-El v. Cockrell, 537 U.S. 322,327 (2003).
It is so ORDERED.
SIGNED this the

Oli

day of January, 2019.

DAVID A. EZRA
SENIOR U.S. DISTRICT JUDGE

\

3
- 3 o ■£ 3

